No. 20-444
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 23rd day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,990
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0444
USA
MICHAEL ANDREW GARY
KIMBERLY HARVEY ALBRO
ASSISTANT FEDERA PUBLIC DEFENDER
1901 ASSEMBLY STREET
SUITE 200
COLUMBIA, SC 29201
803-765-5088
KIMBERLY_ALBRO@FD.ORG
JEFFREY L. FISHER
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
JLFISHER@LAW.STANFORD.EDU

VIA EMAIL

